No.

IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

BULMARO CONTREAS-FIGUEROA,
aka, Israel Contreras,
PETITIONER,
VS.

UNITED STATES OF AMERICA,
RESPONDENT.

 

Proof of Service

Stephen R. Hormel, declares as follows:

That I am admitted to practice before this Court. On April 21, 2021, the Petition for Writ

of Certiorari in the above-entitled matter was sent by United States mail to the Clerk of the

Supreme Court of United States for filing said Petition; an additional copy of the petition was

serviced on counsel for Respondent by placing the same in the United States mail to:

The Honorable Elizabeth Prelogar

Acting Solicitor General of the United States
Department of Justice

950 Pennsylvania Ave., N.W., Room 5143
Washington D.C. 20530

I declare under the penalty of the United States of America, the foregoing is true and

Executed on April 21, 2021, at Spokane Valle}

  
   

Stephen R. Hormel, Attorney for Petitioner

1
